                    Audit of Fiscal Year 2005 Forward
                          Pricing Indirect Rates

                               September 2004

                     Reference Number: 2004-1C-169




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                          September 8, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Audit of Fiscal Year 2005 Forward Pricing Indirect Rates
                              (Audit #20041C0247)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s Fiscal Year
       2005 forward pricing proposal dated April 16, 2004. The purpose of the examination
       was to determine the reasonableness of the proposed forward pricing rates.
       The DCAA considers the contractor’s accounting system to be inadequate in part for
       segregating, accumulating, and reporting Government contract costs. The DCAA
       examination noted certain deficiencies in the design or operation of the internal control
       structure. According to the DCAA, these deficiencies could adversely affect the
       organization’s ability to record, process, summarize, and report costs in a manner that is
       consistent with applicable Government contract laws and regulations. The DCAA is
       currently performing a follow-up audit to determine whether the contractor has
       adequately corrected these deficiencies.
       The DCAA opined that the cost or pricing data submitted by the offeror in support of the
       cost center indirect rates submission and the facilities cost of money portion of the
       submission is inadequate in part. The indirect rate submission and the Facilities Capital
       Cost of Money (FCCOM) proposal were not prepared in all respects in accordance with
       applicable Cost Accounting Standards and appropriate provision of the Federal
       Acquisition Regulation. However, the FCCOM inadequacies are considered to be
       insignificant to the audit results, and the DCAA could quantify the adjustments for the
       noncompliances in the indirect rate submission. Therefore, the DCAA believes that the
       proposal is acceptable as a basis for negotiation of fair and reasonable rates.
                                            2




The DCAA questioned a portion of the proposed cost of money factors based on an
update in the Treasury rate. Also, the DCAA questioned several home office allocations
to the Civil Group and made adjustments within the Civil Group native costs.
The DCAA indicated that an assist audit is not yet complete as of the date of this report.
The results of the assist audit are considered essential to the conclusion of this
examination. Therefore, the DCAA qualified the audit report to the extent that additional
costs may be questioned based on the results of the assist audit.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
